                                 Office of Inspector General
                                Corporation for National and
                                         Community Service




      AGREED-UPON PROCEDURES FOR
  CORPORATION FOR NATIONAL AND COMMUNITY
       SERVICE GRANTS AWARDED TO
 COMMONWEALTH OF NORTHERN MARIANA ISLANDS
          PUBLIC SCHOOL SYSTEM

              OIG REPORT NUMBER 11-15




                        Prepared by:

                  Cotton & Company LLP
               635 Slaters Lane, Fourth Floor
                  Alexandria, VA 22314




This report was issued to Corporation management on June 6, 2011. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later
than December 6, 2011, and complete its corrective actions by June 6, 2012.
Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                                          June 6, 2011

TO:            John Gomperts
               Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management

FROM:          Stuart Axenfeld /s/
               Assistant Inspector General for Audit

SUBJECT:       OIG Report 11-15, Agreed-Upon Procedures for Corporation for National and
               Community Service Grants Awarded to Commonwealth of Northern Mariana
               Islands Public School System (CNMI)

Attached is the final report for the above-noted agreed-upon procedures, which were performed
for the OIG under contract by the independent certified public accounting firm of Cotton and
Company LLP. The contract required Cotton and Company to conduct its procedures in
accordance with generally accepted government attestation standards.

Cotton and Company is responsible for the attached report, dated June 6, 2011, and
conclusions expressed therein. The agreed-upon procedures, unlike an audit in accordance
with U.S. generally accepted government auditing standards, was not intended to enable us to
express opinions on CNMI’s Consolidated Schedule of Claimed and Questioned Costs or the
Schedule of Claimed and Questioned Costs for individual awards, conclusions on the
effectiveness of internal controls, or compliance with laws, regulations and grant provisions.

Under the Corporation’s audit resolution policy, a final management decision on the findings in
this report is due by December 6, 2011. Notice of final action is due by June 6, 2012.

If you have questions pertaining to this report, please call me at (202) 606-9360, or Ronald
Huritz, Audit Manager, at (202) 606-9355.

Attachment

cc:     Tim Thornburgh, Federal Programs Officer, CNMI/PSS
        William Anderson, Chief Financial Officer, CNCS
        Rocco Gaudio, Deputy Chief Financial Officer, Grants & Field Financial Management
        Claire Moreno, Senior Grants Officer, CNCS
        Jack Goldberg, Audit Resolution, CNCS
        Michael Pai, Public Auditor, Saipan CNMI
        Tony Babauta, Assistant Secretary for Insular Areas, U.S. Department of Interior
        Mary Kendall, Acting Inspector General, U.S. Department of Interior
        Michael Gillespie, Partner, Cotton & Company

                   1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                      202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov

                        Senior Corps  AmeriCorps  Learn and Serve America
                                 OFFICE OF INSPECTOR GENERAL
                                AGREED-UPON PROCEDURES FOR
                        CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                     GRANTS AWARDED TO
                        COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS
                                    PUBLIC SCHOOL SYSTEM


                                                          CONTENTS


Section                                                                                                                       Page

Executive Summary .........................................................................................................    1

Independent Accountants’ Report on Applying Agreed-Upon Procedures ......................                                      4

Exhibit A: Consolidated Schedule of Claimed and Questioned Costs ............................                                  6

Schedule A: Schedule of Claimed and Questioned Costs ..............................................                            7

Exhibit B: Compliance Results ........................................................................................ 15

Appendices

A: Commonwealth of the Northern Mariana Islands Response to Draft Report
B: Corporation for National and Community Service Response to Draft Report
                                    EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service,
contracted with Cotton & Company LLP to perform agreed-upon procedures to assist the OIG in
grant cost and compliance testing of Corporation-funded Federal assistance provided to the
Commonwealth of the Northern Mariana Islands Public School System (CNMI).

SUMMARY OF RESULTS

As a result of applying our procedures, we questioned claimed Federal-share costs of $68,288
and education awards of $13,678. A questioned cost is an alleged violation of a provision of
law, regulation, contract, grant, cooperative agreement, or other agreement or document
governing the expenditure of funds or a finding that, at the time of testing, includes costs not
supported by adequate documentation. Detailed results of our agreed-upon procedures on
claimed costs are presented in Exhibit A, Consolidated Schedule of Claimed and Questioned
Costs, and the supporting schedule.

Participants who successfully complete terms of service under AmeriCorps grants are eligible
for education awards and, in some cases, accrued interest awards funded by the Corporation’s
National Service Trust. These award amounts are not funded by Corporation grants and thus,
are not included in claimed costs. As part of our agreed-upon procedures and using the same
criteria used for the grantee’s claimed costs, we determined the effect of our findings on
member eligibility for education awards and accrued interest awards.

The following is a summary of grant compliance testing results. These results, along with
applicable recommendations, are discussed in Exhibit B, Compliance Results.

1. CNMI claimed unallowable and unsupported costs.

2. CNMI did not comply with AmeriCorps requirements for criminal history checks and
   National Sex Offender Public Registry (NSOPR) searches.

3. CNMI did not follow AmeriCorps requirements for compelling personal circumstances.

4. CNMI did not accurately record all timesheet hours, did not have procedures to verify
   member activities and timesheet accuracy, and, in some instances, timesheets did not
   support member eligibility for education awards.

5. CNMI did not comply with AmeriCorps citizenship eligibility requirements.

6. CNMI could not demonstrate that some members received performance evaluations, and all
   end-of-term evaluations did not meet AmeriCorps requirements.

7. CNMI did not complete all member enrollment and exit forms and approve them in the
   Corporation’s reporting systems in accordance with AmeriCorps requirements.

8. CNMI did not follow AmeriCorps requirements for pre-service orientation training, training
   and fundraising hours, member agreement, record retention, annual progress report
   submittal, and member Federal Insurance Contributions Act (FICA) withholding taxes.



                                            1
9. CNMI could not support all site supervisor labor costs, and site supervisors did not sign their
   timesheets.

AGREED-UPON PROCEDURES SCOPE

We performed the agreed-upon procedures detailed in the OIG’s Agreed-Upon Procedures
(AUP) Program for Corporation Awards to Grantees (including Subgrantees), dated April 2010.
Our procedures covered testing of the following grants:

                                                                                  Total Award
                                                                                  During AUP
    Grant Program        Award No.        Award Period          AUP Period           Period
    AmeriCorps State    06TTHMP001       08/16/06-12/07/09   04/01/08-12/07/09    $1,061,679
    AmeriCorps State    09TTHMP001       08/18/09-08/17/12   08/18/09-03/31/10      $340,186

OIG’s AUP program included:

      Obtaining an understanding of CNMI’s operations and programs.

      Reconciling CNMI’s claimed Federal grant costs to its accounting system.

      Testing CNMI’s member files to verify that records support eligibility to serve,
       allowability of living allowances, and eligibility to receive education awards.

      Testing CNMI’s compliance with selected AmeriCorps provisions and award terms
       and conditions.

      Testing CNMI’s claimed Federal grant costs to ensure:

          AmeriCorps grants were properly recorded in CNMI’s general ledger; and

          Costs were allowable and properly documented in accordance with applicable
           Office of Management and Budget (OMB) circulars, grant provisions, award
           terms, and conditions.

We performed testing from July through November 2010.

BACKGROUND

The Corporation

The Corporation supports a range of national and community service programs that provide an
opportunity for participants to engage in full- or part-time periods of service. It funds service
opportunities that foster civic responsibility and strengthen communities. The Corporation also
provides educational opportunities for those who have made a substantial commitment to
service.

The Corporation has three major service initiatives: National Senior Service Corps,
AmeriCorps, and Service-Learning (Learn and Serve America). AmeriCorps, the largest of the
initiatives, is funded through grants to states and territories with commissions, grants to states
and territories without commissions, and National Direct funding to organizations. Grantees

                                             2
recruit and select volunteers, who must qualify to earn living allowances and/or education
awards.

Commonwealth of the Northern Mariana Islands Public School System

CNMI was created pursuant to Article 15 of the Commonwealth of the Northern Mariana
Islands Constitution effective January 11, 1988. CNMI is the state education agency for pre-
school, elementary, and secondary education programs for students ages 6 to 16. It also
provides special programs in early interventions for children from birth to 3 years of age and
children ages 3 to 5 in Head Start. CNMI consists of 21 school campuses: 12 elementary
schools, 4 junior high schools, and 5 high schools.

The CNMI AmeriCorps program is an AmeriCorps State program funded by the Corporation.
CNMI recruits part-time members from public and private schools who, under the guidance
of site supervisors within CNMI, serve in all public elementary and middle schools
throughout the islands of Rota, Tinian, and Saipan. The members provide tutoring and
service learning activities for the community.

EXIT CONFERENCE

The contents of this draft report were discussed with CNMI and Corporation representatives
during a teleconference on March 16, 2011. We have summarized CNMI’s comments in the
appropriate sections of this report and have included its complete comments in Appendix A.

The Corporation did not have specific comments but stated that it will work with CNMI to
ensure its corrective action plan adequately addresses the findings. It intends to respond in
its management decision at a later date (see Appendix B).




                                            3
June 1, 2011


Office of Inspector General
Corporation for National and Community Service

                           INDEPENDENT ACCOUNTANTS’ REPORT ON
                            APPLYING AGREED-UPON PROCEDURES

Cotton & Company LLP performed the procedures detailed in the OIG’s Agreed-Upon
Procedures for Corporation Awards to Grantees (including Subgrantees), dated April 2010.
These procedures were agreed to by the OIG solely to assist it in grant cost and compliance
testing of Corporation-funded Federal assistance provided to CNMI for the awards detailed
below.

This AUP engagement was performed in accordance with attestation standards established by
the American Institute of Certified Public Accountants and generally accepted government
auditing standards. The sufficiency of these procedures is solely the responsibility of the OIG.
Consequently, we make no representation regarding the sufficiency of the procedures, either for
the purpose for which this report has been requested or any other purpose.

Our procedures covered testing of the following awards:

                                                                               Total Award
                                                                               During AUP
   Grant Program        Award No.       Award Period          AUP Period          Period
   AmeriCorps State    06TTHMP001      08/16/06-12/07/09   04/01/08-12/07/09   $1,061,679
   AmeriCorps State    09TTHMP001      08/18/09-08/17/12   08/18/09-03/31/10     $340,186

We performed testing of these AmeriCorps program awards at CNMI. We selected samples of
labor, benefits, and other direct costs that CNMI reported on its November 15, 2009, and March
31, 2010, Federal Financial Reports (FFR). We also tested certain grant compliance
requirements by sampling 25 of CNMI’s 179 total members, as shown on the following page.
We performed all applicable testing procedures in the AUP program for each sampled member.




                                           4
                                                                 Mem
                                                                   mbers
                   Award No.             Pro
                                           ogram Year        Total   Sampled
                   06TTHMP00 01            20
                                            007-2008           50         7
                   06TTHMP00 01            20
                                            008-2009           69         7
                   09TTHMP00 01            20
                                            009-2010           60        11
                   Total                                      179        25


RESU
   ULTS OF AGR
             REED-UPON PROCEDURES
                                S

We questioned
     q            claimed
                  c         Fedeeral-share co
                                            osts of $68,2288. A quesstioned cost is an allege   ed
violattion of provis
                   sion of law, regulation,
                                r           contract,
                                            c         gra nt, cooperattive agreeme ent, or otherr
agreeement or doc  cument gove  erning the exxpenditure oof funds or a finding thatt, at the time
                                                                                                e of
testin
     ng, includes costs not su upported by adequate
                                             a         doocumentatio on.

We questioned
     q           education
                 e          aw
                             wards of $13,678. Grantt participantss who succe essfully compplete
termss of service under
                  u     AmeriCorps grantts are eligibl e for educattion awards and repaym ment
of stu
     udent loan in
                 nterest accruued during th
                                          he term of se
                                                      ervice from tthe Corporattion’s Nation
                                                                                           nal
Service Trust. Th hese award amounts are  e not fundedd by Corporaation grants and thus aree not
     ded in claimed costs. As part of ourr AUP, and u
includ                                                using the same criteria a
                                                                              as claimed ccosts,
we de etermined th            o findings on educatio n and accrued interest a
                 he effect of our                                             award eligibiility.

Detaiiled results of
                  o our agreed
                             d-upon proc  cedures on cclaimed costts are in Exhhibit A and th
                                                                                            he
supporting sched  dules. Results of testing
                                          g grant comppliance are ssummarized in Exhibit B. We
were not engaged to and did not perform   m an examina ation, the ob
                                                                   bjective of w
                                                                               which would bbe
expre
    ession of an opinion on the
                             t subject matter.
                                          m        Accoordingly, wee do not exprress such ann
opinio
     on. Had we performed other
                             o      proceddures, other matters mig ght have com me to our
attention that wouuld have bee
                             en reported.

This report is inte
                  ended solely
                             y for the inforrmation and use of the O
                                                                   OIG, Corporration, CNMII,
and U.S.
    U Congress, and is no     ot intended tot be and sh
                                                      hould not be used by anyone other tthan
these
    e specified parties.
                 p


COTT
   TON & COMPA
             ANY LLP




Michaael W. Gilles
                 spie, CPA, CFE
                            C
Operrations Mana aging Partne
                            er




                                                5
                                                                     EXHIBIT A

         COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS
                      PUBLIC SCHOOL SYSTEM
      CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS

      CONSOLIDATED SCHEDULE OF CLAIMED AND QUESTIONED COSTS

                        Federal Costs            Questioned
Award No.     Awarded     Claimed     Questioned Ed Awards    Reference
06TTHMP001   $1,061,679  $584,257      $66,345     $4,726     Schedule A
09TTHMP001      340,186    109,190      1,943       8,952     Schedule A
Total        $1,401,865   $693,447    $68,288     $13,678




                                6
                                                                                         SCHEDULE A

                          COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS
                                    PUBLIC SCHOOL SYSTEM

                             SCHEDULE OF CLAIMED AND QUESTIONED COSTS

                                                           Award No.       Award No.
                                                          06TTHMP001      09TTHMP001      Notes
Claimed Federal Costs                                        $584,257        $109,190

Questioned Federal Costs:
  Criminal history search not conducted                        $3,345               $0        1
  Insufficient citizenship documentation                        4,275                0        2
  Unallocable other costs                                       8,242                0        3
  Unallocable travel costs                                     14,999                0        4
  Unsupported other costs                                      31,435            1,909        5
  Unsupported labor costs                                       2,940                0        6
  Subtotal                                                    $65,236            1,909
  Administrative Costs                                          1,109               34        7
  Total Questioned Federal Costs                              $66,345           $1,943

Questioned Education Awards:
   Insufficient citizenship documentation                       $2,363              $0        2
   Members service activities                                    2,363               0        8
   Compelling personal circumstances                                 0           8,952        9
   Timekeeping discrepancies                                         0               0      10
   Total Questioned Education Awards                            $4,726          $8,952


    1. CNMI did not conduct a criminal history check for one member:

             CNMI did not conduct a criminal history check for one PY 2007-2008 member who was
              over 18 years of age. It did not have procedures to ensure that members who were over
              18 years of age received criminal history checks.1 As discussed below, we questioned
              living allowance and benefits of $3,345 for the PY 2007-2008 member (Member No. 13).

             CNMI did not conduct NSOPR searches on its members as required. Instead, it
              conducted CNMI sex offender registry searches, which did not comply with AmeriCorps
              regulations because these were searches of the local registry only. CNMI was unaware
              that its sex offender registry search did not comply with AmeriCorps regulations. In
              addition, during fieldwork CNMI could not provide documentation to demonstrate that
              CNMI sex offender registry searches were conducted on two PY 2008-2009 members.
              However, after the exit conference, CNMI provided copies of NSOPR searches for the
              members. Therefore, we did not question any costs or education awards for these
              members. See compliance Finding 2 (Exhibit B).

    1
        CNMI did not conduct criminal history checks on members under 18 years of age, because CNMI
        law prohibits release of criminal history information for minors.

                                                   7
   Criteria

   45 Code of Federal Regulations (CFR) § 2540.202, What two search components of the
   National Service Criminal History Check must I satisfy to determine an individual’s suitability
   to serve in a covered position?, requires programs to conduct state criminal history checks
   and NSOPR searches.

   45 CFR § 2540.203, When must I conduct a State criminal registry check and a NSOPR
   check on an individual in a covered position?, states that criminal registry checks are to
   be conducted on individuals who enrolled or were hired by the program after November
   23, 2007. The NSOPR check was required to be performed for individuals serving or
   who had applied to serve in a covered position (member or grant-funded employee) on
   or after November 23, 2007.

   45 CFR § 2540.205, What documentation must I maintain regarding a National Service
   Criminal History Check for a covered position?, requires grantees to maintain results of
   checks unless prohibited by state law, and to document in writing that results were
   considered when selecting members for the program.

2. Files for one Program Year (PY) 2007-2008 member and one PY 2008-2009 member did
   not contain documentation to support the members’ citizenship.

   Criteria

   According to 45 CFR § 2522.200, every AmeriCorps participant is required to be a citizen,
   national, or lawful permanent resident alien of the United States. In addition, 2007
   AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection C.1,
   Member Enrollment Procedures, states that an individual is enrolled as an AmeriCorps
   member when the program has verified a member’s eligibility to serve. Further, the CNMI
   AmeriCorps Service Program School Year 2007-2008 Member Agreement, Minimum
   Qualification, required members to certify that they were a citizen, national, or lawful
   permanent resident alien of the United States and provide proof of citizenship and age, with
   a driver’s license and passport or a driver’s license and birth certificate.

   The CNMI AmeriCorps program director was recently hired by CNMI and did not know why
   member files were missing citizenship documentation. The failure to verify citizenship
   before a member’s start date could result in enrolling ineligible members who are not
   citizens, nationals, or lawful permanent residents. After the exit conference, CNMI provided
   documentation to support citizenship for the PY 2008-2009 member.

   As shown below, we questioned living allowance and benefits (member costs) and an
   education award for the PY 2007-2008 member without citizenship documentation. See
   Compliance Finding 5 (Exhibit B).

                                                Questioned     Questioned
                                  Member        Education       Member
                 PY                 No.          Awards          Costs
                 2007-2008           1            $2,363         $4,275



                                            8
3. CNMI claimed $8,242 against Award No. 06TTHMP001 that was allocable to Award No.
   09TTHMP001. Award No. 06TTHMP001 supported expenses for PYs 2006-2007, 2007-
   2008, and 2008-2009, and Award No. 09TTHMP001 supported expenses for PY 2009-
   2010. Expenses were claimed in November 2009, but should have been claimed as PY
   2009-2010 expenses. Details follow:

      $2,097 for conference room rental and conference services for the PY 2009-2010
       AmeriCorps member training session held in November 2009.

      $2,221 for office supplies ordered in October 2009 after PY 2008-2009 members had
       exited the program.

      $2,499 for document scanning and digital printing services for copying the PY 2009-
       2010 AmeriCorps Member and Volunteer Manual on flash drives, which were
       distributed to members and site supervisors at the November 2009 training session.

      $1,425 for purchase of 75 flash drives for the document scanning project cited
       above.

   Criteria

   OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments
   Attachment A, Subsection C.3., Allocable costs, states that a cost is allocable to a
   particular cost objective if the goods or services involved are chargeable or assignable to
   such cost objectives in accordance with relative benefits received.

   After the exit conference, CNMI provided a copy of journal voucher that showed the
   above transactions were moved from Award No. 06TTHMP001 to Award No.
   09TTHMP001. However, CNMI did not provide any documentation to demonstrate that
   it had adjusted its Final FFR for Award No. 06TTHMP001. Therefore, we questioned
   $8,242 of unallocable costs. See Compliance Finding 1 (Exhibit B).

4. CNMI claimed unallocable costs against Award No. 06TTHMP001, as follows:

      It claimed $11,770 of airfare and per diem for trips taken in October 2009:

             $6,198 ($2,638 in per diem and $3,560 in airfare), the full amount of the CNMI
              AmeriCorps Program Director’s trip to Denver and Washington, DC.

             $3,560 in airfare, the full amount of the CNMI Federal Grants Officer’s airfare to
              Denver, Washington, DC, and Honolulu.

             $2,012 of per diem, a portion of the Assistant Superintendent for Curriculum and
              Instruction’s trip to Denver, Washington, DC, and Honolulu.

       These expenses were not allocable to the AmeriCorps award because the only portion
       of the trip that was AmeriCorps-related was a half-day meeting with the Corporation’s
       program officer. The program officer was unaware that these costs were charged to the

                                               9
       grant. In addition, this trip was not included in the approved grant budget. The
       approved budget only included travel to Corporation-sponsored conferences and events.

       The Washington, DC, trip purpose was to meet with program officers at the U.S.
       Departments of Education and Interior, and the CNMI Congressional delegate. The
       Denver trip purpose was to meet with an organization about its growth model and peer
       review process. The Honolulu trip purpose was to meet with a private organization on a
       variety of education issues.

      CNMI also claimed $3,229 of travel expenses for a Board of Education representative
       who attended the National Service Learning Conference in Nashville. According to the
       organization chart provided by CNMI, this person was not directly involved in the
       administration of the AmeriCorps program and was not identified in the budget. We
       questioned $3,229.

   CNMI also claimed an additional $1,537 of costs related to this trip, but did not provide
   supporting documentation. These costs are questioned in Schedule A, Note 5, below.

   After the exit conference, CNMI provided a copy of journal voucher that showed the above
   transactions were moved from Award No. 06TTHMP001 to a non-Americorps CNMI
   account. However, CNMI did not provide any documentation to demonstrate that it had
   adjusted its Final FFR for Award No. 06TTHMP001. Therefore, we questioned $14,999
   ($11,770 + $3,229). See Compliance Finding 1 (Exhibit B).

   Criteria

   OMB Circular A-87 Attachment A Subsection C.3., Allocable costs, states that a cost is
   allocable to a particular cost objective if the goods or services involved are chargeable or
   assignable to such cost objectives in accordance with relative benefits received.

5. CNMI did not provide supporting documentation for 21 of 88 sampled transactions totaling
   $21,395 from Award No. 06TTHMP001, and 6 of 20 sampled transactions totaling $1,127
   from Award No. 09TTHMP001.

   In addition, it did not provide adequate supporting documentation for seven sampled
   transactions totaling $10,040 from Award No. 06TTHMP001 and two sampled transactions
   totaling $782 from Award No. 09TTHMP001.

   Award No. 06TTHMP001

      CNMI claimed $345 of travel expenses against Award No. 09TTHMP001 for an
       AmeriCorps site supervisor's attendance at a May 2009 AmeriCorps ceremony. CNMI
       claimed $202 of per-diem and lodging expenses and $142 of rental car expenses. The
       rental car invoice supported $113, a difference of $29. We questioned $29.

      CNMI claimed $4,800 ($400 x 12) of rent expenses from August 2008 through July 2009
       for the AmeriCorps office located at Marianas High School. CNMI provided a copy of a
       purchase order and an invoice on Marianas High School letterhead but it did not provide
       documentation to support the valuation of the rent expenses was determined. Because
       we could not determine how these costs were valued, we questioned the entire amount
       of $4,800.

                                            10
   CNMI claimed airfare expenses of $2,581 for program director to attend the National
    Conference on Volunteering and Service in San Francisco from June 19-28, 2009.
    CNMI provided an itinerary and travel authorization for which showed $2,581 as the cost
    of the airfare. The itinerary provided showed that the program director was to depart
    San Francisco on June 28; however, copies of boarding passes provided for the return
    flight showed the traveler did not return until July 3, 2009 and departed from a different
    city than the conference. CNMI did not provide documentation to explain why the return
    days were different. Because of the discrepancies between the itinerary and boarding
    passes and because CNMI did not provide any documentation to show that flight
    changes did had not reduce the amount claimed, Therefore we questioned $2,581.

   CNMI claimed travel expenses of $2,821 for the program director to attend National
    Conference on Volunteering and Service in San Francisco. CNMI claimed $248 of
    transportation expenses, $1,543 of lodging expenses, $530 of per diem expenses, and a
    $500 registration fee for this conference. CNMI did not provide documentation to
    support payment of the $500 conference registration fee. Instead, it only provided a
    copy of a web page printout showing the amount of the registration fee. We questioned
    $500.

   CNMI claimed $253 of travel expenses for the Board of Education Chairperson to attend
    the AmeriCorps awards ceremony on the island of Saipan on May 23, 2009. CNMI
    claimed $115 of rental car expenses and $138 of per diem expenses. The rental car
    expenses were supported by an invoice but CNMI did not provide documentation that
    identified whether the $138 per diem costs consisted of lodging, meals and incidental
    expenses, or a combination of the two. Therefore, we questioned $138.

   CNMI claimed $1,799 of travel expenses for the program director to meet with officials in
    Washington, DC from March 31 to April 7, 2008 and to attend the National Service
    Learning Conference in Minneapolis, MN from April 8 to April 13, 2008. CNMI claimed
    $971 of per diem expenses and $828 of other expenses. CNMI provided an online
    credit card statement showing various charges, but it did not identify which charges
    made up the $1,799 claimed. Therefore, we questioned $1,799.

   CNMI claimed $291 of travel expenses for the program director to conduct site visits in
    Rota on December 11 and 12, 2008. CNMI claimed $98 of rental car and gas expenses
    and $193 of per diem expenses. CNMI provided invoices for the rental car and gas
    expenses, but CNMI did not provide documentation that identified whether $193 of per
    diem costs consisted of lodging and meals and incidental expenses, or a combination of
    the two. Therefore, we questioned $193.

Award No. 09TTHMP001

   CNMI provided supporting documentation for $245 of $958 sampled internet costs for
    the AmeriCorps Program Director and Assistant, but did not provide supporting
    documentation for the remaining $713.

   CNMI claimed $207 of per-diem and rental car expenses for an AmeriCorps site
    supervisor to attend a January 2010 meeting on the island of Saipan. It did not,
    however, support $69 of rental car expenses.


                                        11
   Criteria

   OMB Circular A-87 Attachment A, Subsection C.1., Factors affecting allowability of costs,
   states that an award cost must be adequately documented to be allowable. Further, 45
   CFR § 2541.420, Retention and access requirements for records, requires retention of
   supporting documents and records pertinent to an award for 3 years from the date of
   submission of the final expenditure report.

   We questioned unsupported costs of $31,435 ($21,395 + $10,040) from Award No.
   06TTHMP001 and $1,909 ($1,127 + $782) from Award No. 09TTHMP001. See Compliance
   Finding 1 (Exhibit B).

6. CNMI claimed $8,940 of AmeriCorps site supervisor salaries in January 2009 for work
   performed in December 2008. It provided site supervisor timesheets and certifications by
   the AmeriCorps program director supporting only $6,000 of the $8,940 claimed. CNMI could
   not locate documentation to support the remaining $2,940 of AmeriCorps site supervisor
   labor costs.

   Criteria

   OMB Circular A-87, Attachment B, Subsection 8.h., Support of salaries and wages, requires
   charges for salaries and wages for individuals working solely on a single Federal award or
   cost objective to be supported by periodic certifications that the employee worked solely on
   the program for the period covered by the certification. These certifications must be signed
   by the employee or supervisory official having firsthand knowledge of the work performed by
   the employee. Further, personnel activity reports are required for employees working on
   multiple activities. These reports must be signed by each employee and account for all time
   worked.

   45 CFR § 2541.420, Retention and access requirements for records, requires retention of
   supporting documents and records pertinent to an award for 3 years from the date of
   submission of the final expenditure report.

   We questioned $2,940 of unsupported costs. See Compliance Finding 9 (Exhibit B).

7. CNMI claimed administrative costs of 1.7 percent for Award No. 06TTHMP001 and 1.8
   percent for Award No. 09TTHMP001. Questioned costs in Notes 1 through 6 resulted in
   $1,109 ($65,236 x 1.7 percent) of unallowable administrative costs on Award No.
   06TTHMP001. Questioned costs in Note 5 resulted in $34 ($1,909 x 1.8 percent) of
   unallowable administrative costs on Award No. 09TTHMP001. See Compliance Finding 1
   (Exhibit B).

8. One PY 2008-2009 member recorded 80 hours of clerical work performed at the CNMI
   Department of Military Affairs as service time on her August 2009 timesheet. CNMI
   identified these service hours as “Life after AmeriCorps” hours. The member performed
   administrative duties, including filing and organizing files and assisting the executive office
   on matters pertaining to veteran health benefits and the veterans cemetery.




                                             12
   Criteria

   Clerical activities were inconsistent with activities described in the grant application, which
   lists activities such as after school, weekend, and summer tutoring; mentoring; and reading,
   as well as participation in family days and community clean ups.

   We deducted the 80 service hours recorded by the member. After deducting these hours,
   remaining hours were insufficient to qualify the member for an education award.

                                       Timesheet Hours                            Questioned
                 Member                 Life After                    Hours       Education
    PY            No.       Total      AmeriCorps     Adjusted       Required       Award
    2008-2009      11        934            80          854            900          $2,363

   We questioned the education award of $2,363 for this member because these activities
   were inconsistent with activities described in the grant application. See Compliance Finding
   4 (Exhibit B).

9. CNMI exited eight PY 2009-2010 members for compelling personal circumstances, but did
   not document the basis for its determinations. Its AmeriCorps director was newly hired and
   was unaware of AmeriCorps requirements for compelling personal circumstances, thus did
   not maintain any documentation of compelling personal circumstances.

   Criteria

   According to 45 CFR § 2522.230 Under what circumstances may AmeriCorps participants
   be released from completing a term of service, and what are the consequences?, an
   AmeriCorps program may release a participant from completing a term of service for
   compelling personal circumstances as demonstrated by the participant, or for cause.
   Further, the program must document the basis for any determination that compelling
   personal circumstances prevent a participant from completing a term of service.

   We questioned prorated education awards of $8,952 for these members (Member Nos.
   3 through 10). See Compliance Finding 3 (Exhibit B).

                                                     Questioned
                                         Member      Education
                           PY              No.        Awards
                           2009-2010        3           $587
                           2009-2010        4             776
                           2009-2010        5           1,504
                           2009-2010        6           1,339
                           2009-2010        7           1,520
                           2009-2010        8             797
                           2009-2010        9             864
                           2009-2010       10           1,565
                           Total                       $8,952




                                            13
    10. Timesheets for 21 of 25 (5 PY 2007-2008 members, 6 PY 2008-2009 members, and 10 PY
        2009-2010 members) tested did not agree with hours recorded in the Portal or on CNMI exit
        documents. Timesheet hours for three PY 2009-2010 members were insufficient to qualify
        them for partial education awards.


                                                                                Questioned
                                        Member       Portal     Timesheet       Education
                        PY                No.        Hours        Hours          Awards2
                        2009-2010          4          291          259            Note 9
                        2009-2010          5          564          517            Note 9
                        2009-2010          9          324          276            Note 9

        Criteria

        2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
        C.2, requires grantees to keep time-and-attendance records for all AmeriCorps members to
        document their eligibility for in-service and post-service benefits. The Corporation uses
        time-and-attendance information entered in the Portal (and formerly in the Corporation’s
        Web Based Reporting System) to track member status, which forms the basis for calculating
        education awards.

        AmeriCorps requirements address policy but do not address specific timesheet procedures.
        It is, however, good business practice to check the accuracy of hours recorded on
        timesheets.

        Without procedures to verify member activities or timesheet accuracy, the potential exists for
        members to receive education awards for which they are not entitled. We questioned the
        prorated portion of the partial education awards for three members (Member Nos. 4, 5, and
        9). The prorated portion is included in the education awards questioned in Note 9. See
        Compliance Finding 4 (Exhibit B).




2
    We calculated the questioned amount as follows: (Portal hours/900 hours x $2,363) – (timesheet hours/900
    hours x $2,363).

                                                       14
                                                                                   EXHIBIT B

                  COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS
                            PUBLIC SCHOOL SYSTEM

                                  COMPLIANCE RESULTS

Our agreed-upon procedures identified the compliance findings described below.

Finding 1.   CNMI claimed unallowable and unsupported costs.

Notes to Schedule A describe questioned costs of $68,288, which are summarized on Exhibit A.
A questioned cost is an alleged violation of provision of law, regulation, contract, grant,
cooperative agreement, or other agreement or document governing the expenditure of funds or
a finding that, at the time of testing, such cost was not supported by adequate documentation.

Recommendations: We recommend that the Corporation:

   1a. Calculate and seek to recover the appropriate amount of disallowed costs based on our
       costs questioned;

   1b. Calculate and seek to recover administrative costs related to the disallowed costs;

   1c. Require CNMI to adjust its FFRs for the unallowable costs; and

   1d. Instruct CNMI to review applicable regulations and develop policies and procedures to
       ensure that claimed costs are allowable, adequately documented, and allocable in
       accordance with applicable cost principles and regulations.
.
CNMI’s Response: CNMI provided the following responses:

      It transferred the $14,999 of questioned travel costs to a non-AmeriCorps account and
       adjusted its FFR;

      It transferred the $8,242 of questioned other costs claimed on Award No. 06TTHMP001
       to award No. 09TTHMP001 and adjusted its FFR;

      Documents supporting the $31,435 of unsupported other costs, $1,909 of unsupported
       other costs, and $2,940 of unsupported labor costs are not available. It stated that the
       files supporting these costs were transferred to another building for storage but the
       building was demolished and all contents stored in the building were destroyed. It asked
       the Corporation to allow these costs because the costs were legitimate program
       expenses incurred to conduct program activities;

      Beginning on May 1, 2011, all program records will be maintained and retained
       electronically using a newly implemented Public School System policy. This system will
       ensure that program documents are retained for the time limits described in CNMI and
       AmeriCorps regulations; and




                                           15
      It is working on finalizing a comprehensive standard operating procedure that addresses
       compliance with Corporation requirements and procedures for financial requests. The
       procedures will be consistent with the program’s approved program budget. It will
       provide a copy of the finalized standard operating procedure before July 1, 2011.

Accountants’ Comments: Our responses follow:

      Transferring the $14,999 of questioned costs to a non-AmeriCorps account and
       transferring the $8,242 of questioned costs to the Award No. 09TTHMP001 are
       responsive to our recommendation. However, CNMI did not provide copies of its
       adjusted FFRs. We recommend that the Corporation verify that CNMI has adjusted its
       FFRs and has returned the $14,999 of questioned costs and related administrative costs
       to the Corporation;

      CNMI did not mention the destroyed building and records during planning, on-site
       fieldwork, and the exit conference. Further, CNMI did not provide documentation to
       support its statement that these records and the building the records were stored in were
       destroyed. We recommend that the Corporation disallow and seek to recover $36,284
       ($34,375 from Award No. 06TTHMP001 and $1,909 from Award No. 09TTHMP001) of
       these costs and any related administrative costs from CNMI.

      We recommend that the Corporation verify that CNMI’s electronic records system meets
       the requirements for electronic record keeping that are described in the AmeriCorps
       Grant Provisions;

      Creating a standardized operating procedure is responsive to our recommendation. We
       recommend that the Corporation verify that the new procedure has been provided by
       July 1, 2011, and that it includes measures for ensuring claimed costs are allowable,
       adequately documented, allocable to Corporation awards, and are in the approved
       budget; and

      We recommend that the Corporation verify that CNMI’s revised procedures have
       been implemented and are working as intended.

Finding 2.    CNMI did not comply with AmeriCorps requirements for criminal history
              checks and NSOPR searches.

CNMI did not conduct NSOPR searches for all members and did not conduct a criminal history
check for one member:

      CNMI did not conduct NSOPR searches on its members as required. Instead, it
       conducted CNMI sex offender registry searches, which did not comply with AmeriCorps
       regulations because these were searches of the local registry only. CNMI was unaware
       that its sex offender registry search did not comply with AmeriCorps regulations. CNMI
       also did not conduct its own search on two PY 2008-2009 members. After the exit
       conference, CNMI provided documentation of NSOPR searches for all sampled
       members. Therefore, we did not question the education awards for these members.




                                           16
          CNMI did not conduct a criminal history check for one PY 2007-2008 member who was
           over 18 years of age. It did not have procedures to ensure that members who were over
           18 years of age received criminal history checks.3

As discussed in Schedule A Note 1, we questioned living allowance and member benefits of
$3,345 for the PY 2007-2008 member (Member No. 13).

Criteria

45 CFR § 2540.202, What two search components of the National Service Criminal History
Check must I satisfy to determine an individual’s suitability to serve in a covered position?,
requires programs to conduct state criminal history checks and NSOPR searches.

45 CFR § 2540.203, When must I conduct a State criminal registry check and a NSOPR
check on an individual in a covered position?, states that criminal registry checks are to be
conducted on individuals who enrolled or were hired by the program after November 23,
2007. The NSOPR check was required to be performed for individuals serving or who had
applied to serve in a covered position (member or grant-funded employee) on or after
November 23, 2007.

45 CFR § 2540.205, What documentation must I maintain regarding a National Service
Criminal History Check for a covered position?, requires grantees to maintain results of
checks unless prohibited by state law, and to document in writing that results were
considered when selecting members for the program.

CNMI also did not conduct CNMI sex offender registry searches for 23 of 25 sampled members
until several months after the members started service. As shown in the table below, the
number of days between member start dates (and dates when members could have been
working with vulnerable populations) and search dates ranged from 80 to 190 days:

                                        Number of           Days to
                         PY             Members        Perform Searches
                         2007-2008         7                122-135
                         2008-2009         5                184-190
                         2009-2010        11                 80-115

Criteria

45 CFR § 2540.205 requires grantees to document in writing that results were considered
when selecting members for the program.

Not obtaining criminal history checks for members with substantial recurring contact with
children and vulnerable populations before a member’s start date could present a danger to
the individuals being served by the members.




3
    CNMI did not conduct criminal history checks on members under 18 years of age, because CNMI
    law prohibits release of criminal history information for minors.

                                               17
Recommendations: We recommend that the Corporation:

   2a. Provide guidance to CNMI to ensure that it conducts, maintains, and retains
       documentation to support member criminal history checks conducted in compliance
       with AmeriCorps regulations; and

   2b. Verify that CNMI has implemented effective background check procedures.

CNMI’s Response: CNMI provided the following responses:

      An auditor must ascertain if a cost has been incurred before it can be questioned;

      It is working on finalizing a comprehensive standard operating procedure that
       addresses compliance with Corporation requirements and procedures on
       background checks. It will provide a copy of the standard operating procedure
       before July 1, 2011; and

      It has implemented the Corporation requirements for background checks by
       conducting NSOPR searches nationally instead of locally for new members. In
       addition, all future background checks will be conducted in accordance with
       Corporation requirements prior to the start date of each member.

Accountants’ Comments: Our responses follow:

      CNMI did not provide a response to the $3,345 of living allowance costs questioned
       for the member who was over 18 years of age and did not have a criminal history
       check. Documents supporting that the costs were incurred include the member’s
       enrollment form, mid-term evaluation form, exit form, and timesheets. We
       recommend that the Corporation disallow and seek to recover these costs and any
       related administrative costs;

      Creating a standardized operating procedure is responsive to our recommendation.
       We recommend that the Corporation verify that the new procedure has been
       provided by July 1, 2011, and includes measures for conducting criminal history
       checks on members over 18 years of age, and conducting NSOPR searches on all
       members. In addition, we recommend that the Corporation verify that CNMI’s
       standard operating procedure includes measures for retaining documentation of
       criminal history checks and NSOPR checks;

      Conducting NSOPR searches nationally instead of locally for new members and
       conducting future background checks prior to the start date of each member are
       responsive to our recommendations. We recommend that the Corporation verify that
       these procedures are documented in CNMI’s standard operating procedure; and

      We recommend that the Corporation verify that the revised procedures have been
       implemented and are working as intended.




                                           18
Finding 3.        CNMI did not follow AmeriCorps requirements for compelling personal
                  circumstances.

CNMI exited eight PY 2009-2010 members for compelling personal circumstances, but did not
document the basis for its determinations. Its AmeriCorps director was newly hired and was
unaware of AmeriCorps requirements for compelling personal circumstances and did not
maintain any supporting documentation for the compelling personal circumstances.

Criteria

According to 45 CFR § 2522.230, an AmeriCorps program may release a participant from
completing a term of service for compelling personal circumstances as demonstrated by the
participant, or for cause. The program must document the basis for any determination that
compelling personal circumstances prevent a participant from completing a term of service.
Further, compelling personal circumstances do not include leaving a program to enroll in school;
leaving a program to obtain employment, other than moving from welfare to work, or leaving a
program that includes in its approved objectives the promotion of employment among its
participants; or dissatisfaction with the program.

As discussed in Schedule A, Note 9, we questioned $8,952 of prorated education awards for
eight members (Member Nos. 3-10).

Recommendations: We recommend that the Corporation:

    3a. Disallow and, if already used, recover education awards made to members who did
        not meet the AmeriCorps requirements for compelling personal circumstances;

    3b. Require CNMI to strengthen its policies and procedures to ensure that it complies
        with Corporation requirements concerning compelling personal circumstances; and

    3c. Verify implementation of CNMI’s strengthened policies and procedures.

CNMI’s Response: CNMI provided the following responses:

          It disagrees with our recommendation to disallow and recover the education awards
           made to the members who did not meet the AmeriCorps requirements for compelling
           personal circumstances. It stated that the eight members had compelling
           circumstances and it provided reasons for each member. As summarized below, it
           stated that three members exited for personal reasons, three members left to attend
           college outside of CNMI, and two members left to join the military.

              Member No. 3 had too many school and extracurricular activities. The member
               felt that he was unable to give his full attention to the AmeriCorps program;

              Member No. 4 took on a part-time job to help his family;

              Member No. 5 left to attend college at the University of Guam;

              Member No. 6 was “burnt out” and lost interest in the program;



                                               19
          Member No. 7 left to attend college at the University of Guam;

          Member Nos. 8 and 9 left to join the military; and

          Member No. 10 left to attend Hawaii Pacific University.

      Of the three members who exited the program for personal reasons, Member No. 4
       has a compelling personal circumstance. CNMI is in a major economic crisis that
       forces many families to seek additional employment opportunities, including relying
       on family members who are of age to take on part-time jobs to help support the
       family.

      While the Corporation does not recognize the reasons provided for Member Nos. 3
       and 6 as compelling personal circumstances, CNMI has tightened its monitoring and
       tracking systems to identify members who are not meeting the required hours on a
       monthly basis. It will provide these members with solutions to prevent the members
       from exiting early and will replace members who do not perform the required hours;

      The three members (Nos. 5, 7, and 10) who exited to attend college outside of the
       CNMI have compelling personal circumstances but the Corporation does not
       recognize attending college as a compelling personal circumstance. It further stated
       that its students have limited options after they graduate from high school. Students
       attend college in CNMI or at a college outside of CNMI, serve in the military, or seek
       employment opportunities;

      It is working on finalizing a comprehensive standard operating procedure that
       addresses policies and procedures for complying with Corporation requirements for
       compelling personal circumstances. It will provide a copy of the standard operating
       procedure before July 1, 2011.

Accountants’ Comments: Our responses follow:

      We do not agree with CNMI’s statement that Member Nos. 3, 4, 5, 6, 7, and 10 left
       for compelling personal circumstances.

       As discussed above, compelling personal circumstances do not include leaving a
       program to enroll in school; leaving a program to obtain employment, other than
       moving from welfare to work, or leaving a program that includes in its approved
       objectives the promotion of employment among its participants; or dissatisfaction
       with the program.

       We continue to recommend that the Corporation disallow and, if already used,
       recover education awards of $7,291 made to members who did not meet the
       AmeriCorps requirements for compelling personal circumstances;

      CNMI stated that Member Nos. 8 and 9 left for military service; however, CNMI did
       not provide any documentation to support this explanation. We recommend that the
       Corporation require CNMI to provide documentation to support its statement that
       these members left for military service. If CNMI is unable to provide such



                                           20
       documentation, we recommend that the Corporation disallow and recover the $1,661
       of education awards made to these members;

      Creating a standardized operating procedure is responsive to our recommendation.
       We recommend that the Corporation verify that the new procedure has been
       provided by July 1, 2011, and that it includes procedures for complying with
       Corporation requirements for compelling personal circumstances;

      We recommend that the Corporation verify that CNMI’s revised procedures have
       been implemented and are working as intended.

Finding 4.     CNMI did not accurately record all timesheet hours, did not have
               procedures to verify member activities and timesheet accuracy, and, in
               some instances, timesheets did not support member eligilbity for
               education awards.

We tested timesheets for 25 members. As described below, timesheet hours were not always
accurately recorded in the Portal or on CNMI exit documents, and we identified weaknesses in
how timesheets were prepared.

a. Timesheets for 21 of 25 (5 PY 2007-2008 members, 6 PY 2008-2009 members, and 10 PY
   2009-2010 members) tested did not agree with hours recorded in the Portal or on CNMI exit
   documents. Timesheet hours for three PY 2009-2010 members did not support the hours
   used to calculate the members’ partial education awards.

                                       Member     Portal    Timesheet
                        PY               No.      Hours       Hours
                        2009-2010         4        291         259
                        2009-2010         5        564         517
                        2009-2010         9        324         276

   Criteria

   2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
   C.2, requires grantees to keep time-and-attendance records for all AmeriCorps members to
   document their eligibility for in-service and post-service benefits. The Corporation uses
   time-and-attendance information entered in the Portal (and formerly in the Corporation’s
   Web Based Reporting System) to track member status, which forms the basis for calculating
   education awards.

   AmeriCorps requirements address policy but do not address specific timesheet procedures.
   It is, however, good business practice to check the accuracy of hours recorded on
   timesheets.

b. One PY 2008-2009 member recorded 80 hours of clerical work performed at the CNMI
   Department of Military Affairs as service time on her August 2009 timesheet. CNMI
   identified these service hours as “Life after AmeriCorps” hours. The member performed
   administrative duties, including filing and organizing files and assisting the executive office
   on matters pertaining to veteran health benefits and the veterans cemetery.



                                             21
   Criteria

   Clerical activities were inconsistent with activities described in the grant application, which
   lists activities such as after school, weekend, and summer tutoring; mentoring; and reading,
   as well as participation in family days and community clean ups. We deducted the 80
   service hours recorded by the member. After deducting these hours, remaining hours were
   insufficient to qualify the member for an education award.

                                      Timesheet Hours                             Questioned
                 Member                Life After                     Hours       Education
    PY            No.       Total     AmeriCorps     Adjusted        Required       Award
    2008-2009      11        934           80          854             900          $2,363


   Without procedures to verify member activities, the potential exists for members to perform
   prohibited activities or receive education awards to which they are not entitled.

   We questioned the prorated portion of the partial education awards for the three PY
   2009-2010 members (Member Nos. 4, 5, and 9). The prorated portion is included in the
   education awards questioned for compelling personal circumstances Schedule A, Note
   9. We also questioned in Schedule A, Note 8, the education award of $2,363 for the PY
   2008-2009 member (Member No. 11) who had insufficient number of hours after
   deducting the Life after AmeriCorps hours.

c. We noted weaknesses in timekeeping procedures. A summary of timesheet
   discrepancies by program year follows:

                                                            Program Years
     Timesheet Discrepancies                      2007-2008   2008-2009   2009-2010
     Member and supervisor signatures not dated       7            7          1
     Supervisor signatures not dated                  2            1          0
     Member signatures not dated                      0            3          0
     Corrections made with whiteout                   0            1          2
     Corrections not initialed                        0            2          8
     Member signatures missing                        0            0          1
     Mathematical errors                              0            0          1
     Total                                            9           14         13


   Criteria

   AmeriCorps requirements address policy but do not address specific timesheet
   procedures, which is the responsibility of the grantee or subgrantee. It is, however, good
   business practice to maintain original documents, initial changes, make corrections
   without pencil or whiteout, sign and date documents. As a result, accountability is
   maintained, and timesheets are consistent with member and management intentions.

Recommendations: We recommend that the Corporation:

   4a. Disallow and, if already used, recover education awards made to members who did
       not serve the minimum required service hours;

                                            22
   4b. Require CNMI to strengthen its procedures to ensure that proper member timesheets
       are maintained; and

   4c. Verify that CNMI’s strengthened member timesheet procedures have been
       implemented.

CNMI’s Response: CNMI provided the following responses:

      Its program director has informed site supervisors of Corporation requirements for
       member timesheets, and it documented this notification in its November 2010 site
       supervisor quarterly meeting minutes. In addition, the program director will conduct
       training on proper maintenance of member timesheets prior to the start of the new
       program year and it will retain evidence of this training. Finally, the program director
       will check submitted timesheets for accuracy and completeness prior to approving
       them; and

      It is working on finalizing a comprehensive standard operating procedure that
       addresses policies and procedures on properly maintaining timesheets. It will
       provide a copy of the finalized standard operating procedure before July 1, 2011.

Accountants’ Comments: Our responses follow:

      Informing site supervisors of the requirements for member timesheets, conducting
       site supervisor training on proper maintenance of member timesheets, and checking
       submitted timesheets for accuracy and completeness are responsive to our
       recommendation;

      Creating a standardized operating procedure that addresses policies and procedures
       on properly maintaining member timesheets is responsive to our recommendation.
       We recommend that the Corporation verify that the standard operating procedure
       has been provided by July 1, 2011, and that it includes procedures for informing site
       supervisors of the requirements for member timesheets; conducting site supervisor
       training on member timesheets, and reviewing timesheets for completeness and
       accuracy;

      We recommend that the Corporation verify that CNMI’s revised procedures have
       been implemented and are working as intended;

      CNMI did not respond to the three PY 2009-2010 members (Member Nos. 4, 5, and
       9) who had a prorated portion of their partial education awards questioned because
       their timesheets did not support the hours used to calculate their partial education
       awards. Because Member Nos. 4 and 5 did not meet the requirements for
       compelling personal circumstances, their education awards continue to be
       questioned in Finding 3. If CNMI provides documentation to support the military
       service of Member No. 9, we recommend that the Corporation disallow and, if
       already used, recover the prorated education award of $127 for this member; and

      CNMI did not respond to the one member whose education award was questioned
       for performing clerical activities. We continue to recommend that the Corporation


                                            23
           disallow and, if already used, recover the education award of $2,363 for this
           member.

Finding 5.      CNMI did not comply with AmeriCorps citizenship eligibility requirements.

Files for one PY 2007-2008 member (Member No. 1) and one PY 2008-2009 member did
not contain documentation to support citizenship.

Criteria

45 CFR § 2522.200 states that every AmeriCorps participant is required to be a citizen,
national, or lawful permanent resident alien of the United States. In addition, 2007
AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection C.1,
Member Enrollment Procedures, states that an individual is enrolled as an AmeriCorps
member when the program has verified a member’s eligibility to serve. Further, the CNMI
AmeriCorps Service Program School Year 2007-2008 Member Agreement, Minimum
Qualification, requires members to certify that they were a citizen, national, or lawful
permanent resident alien of the United States. The members were also required to provide
proof of citizenship and age, with a driver’s license and passport or a driver’s license and
birth certificate.

The CNMI AmeriCorps program director was recently hired by CNMI and did not know why
member files were missing citizenship documentation. Not verifying citizenship before a
member’s start date could result in enrolling ineligible members who are not citizens,
nationals, or lawful permanent residents. After the exit conference, CNMI provided
documentation to support citizenship for the PY 2008-2009 member

As discussed in Schedule A, Note 2, we questioned living allowance and benefits of $4,275
and the education award of $2,363 for the PY 2007-2008 member (Member No. 1).

Recommendations: We recommend that the Corporation:

    5a. Disallow and, if already used recover the education awards made to members
        without citizenship documentation,

    5b. Require CNMI to strengthen its procedures for citizenship verification.

    5c. Ensure that CNMI implements policies and procedures to verify that citizenship
        documentation is retained in the member files.

CNMI’s Response: CNMI provided the following responses:

          Eligibility documents were missing from some member files; however, it found the
           documents in a separate file and that CNMI provided the eligibility documents for the
           two members to the auditors. In addition, it has verified the eligibility of all members
           enrolled in its AmeriCorps program and that all member files contain eligibility
           documents;

          It is working on finalizing a comprehensive standard operating procedure that
           addresses policies and procedures for ensuring that members are eligible to join
           AmeriCorps. The policies include citizenship verification, acceptable documents to

                                                24
           support eligibility, and procedures to file these documents in the member files. It will
           provide a copy of the finalized standard operating procedure before July 1, 2011.

Accountants’ Comments: Our responses follow:

          We do not agree with CNMI’s statement that it provided all eligibility documentation
           for the two members. On March 25, 2011, it provided a copy of the birth certificate
           for Member No. 12 but did not provide documentation to support citizenship eligibility
           for Member No. 1. Therefore, we recommend that the Corporation disallow, and, if
           already used, recover this member’s education award of $2,363. In addition, we
           recommend that the Corporation also disallow and seek to recover the member’s
           living allowance of $4,275 and any related administrative costs;

          Creating a standardized operating procedure that addresses policies and procedures
           for ensuring members are eligible to join AmeriCorps is responsive to our
           recommendation. We recommend that the Corporation verify that the new procedure
           has been provided by July 1, 2011, and that it includes measures for citizenship
           verification, acceptable documents to supporting eligibility, and procedures to file
           these documents in the member files; and


          We recommend that the Corporation verify that CNMI’s revised procedures have
           been implemented and are working as intended.


Finding 6.    CNMI could not demonstrate that some members received performance
evaluations, and all end-of-term evaluations did not meet AmeriCorps requirements.

CNMI could not demonstrate that 4 of 7 sampled PY 2007-2008 members, 5 of 7 sampled
PY 2008-2009 members, and 7 of 11 sampled PY 2009-2010 members received end-of-
term performance evaluations. In addition, none of the evaluations tested at CNMI indicated
if the members had completed the required number of service hours to be eligible for
education awards.

Evaluations are necessary to ensure that members are eligible for additional service terms
and education awards, and that grant objectives have been met.

Criteria

2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection D.6,
states that grantees must conduct and keep records of at least a mid- and end-of-term written
evaluation of each member’s performance for full- and half-time members, and an end-of-term
written evaluation for less than half-time members to document that the member has:

          Completed the required number of hours;
          Satisfactorily completed assignments; and
          Met other performance criteria communicated at the beginning of the service term.

45 CFR § 2522.220(c) states that a participant is not eligible for a second or additional term
of service and/or for an AmeriCorps education award without satisfactory performance
evaluations.

                                                25
We identified other issues with mid- and end-of-term evaluations:

      Final evaluations for one sampled PY 2007-2008 member and one sampled PY
       2008-2009 member were not signed by the member or supervisor.

      The final evaluation for one PY 2009-2010 member was not signed by the member.

      Final evaluations for three PY 2009-2010 members were completed before the
       members completed their service.

Recommendations: We recommend that the Corporation:

   6a. Provide training to CNMI on requirements for member evaluations, and ensure that it
       strengthens procedures for conducting and documenting member evaluations.

   6b. Verify implementation of CNMI’s procedures for member evaluations.

CNMI’s Response: CNMI provided the following responses:

      Its program director will take the new program directors training when it is offered,
       and the director will use the training resources in the Portal to strengthen its
       program to comply with Corporation requirements;

      The program director has informed site supervisors of the Corporation requirements
       for member evaluations and documented its notification in its November 2010 site
       supervisor quarterly meeting minutes;

      The program director will conduct training on member evaluations prior to the start of
       its new program year and it will retain documentation of this training;

      The program director will ensure that member evaluations are submitted on time and
       conducted as required by the guidelines; and

      It is working on finalizing a comprehensive standard operating procedure that directly
       addresses policies and procedures on conducting and documenting member
       evaluations. It will provide a copy of the finalized standard operating procedure
       before July 1, 2011.

Accountants’ Comments: Our responses follow:

      The program director’s attendance at the Corporation’s new program director
       training, informing site supervisors of Corporation requirements for member
       evaluations, and conducting training on member evaluations are responsive to our
       recommendation;

      Creating a standardized operating procedure that addresses policies and procedures
       on properly conducting and documenting member evaluations is responsive to our
       recommendation. We recommend that the Corporation verify that the new procedure
       has been provided by July 1, 2011, and that it includes procedures for informing site
       supervisors of the requirements for member evaluations, conducting training on new

                                            26
           member evaluations, ensuring member evaluations are submitted timely, and
           ensuring that member evaluations comply with Corporation requirements; and

          We recommend that the Corporation verify that CNMI’s revised procedures have
           been implemented and are working as intended.

Finding 7.      CNMI did not complete all member enrollment and exit forms and approve
                them in the Corporation’s reporting systems in accordance with
                AmeriCorps requirements.

CNMI did not approve some member enrollment and exit forms in WBRS or the Portal within 30
days after members started or ended their service terms. The number of late instances for each
situation is noted below:

                                             PY           PY          PY         Days to
  Type of Form                            2007-2008    2008-2009   2009-2010    Approve
  Enrollment Form (Approved in Portal)        0            0          11        139-323
  Exit Form (Approved in Portal)              6            2           9         33-154

Criteria

2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection E.2,
Notice to the Corporation’s National Service Trust, states that the grantee must notify the
Corporation’s National Service Trust within 30 days upon entering into a commitment with an
individual to serve; upon a member’s enrollment; and completion of lengthy or indefinite
suspension from, or release from, a term of service.

In addition, we noted other compliance issues with member forms for the 25 sampled members:

          Files for 11 PY 2009-2010 members did not have enrollment forms.

          One PY 2007-2008 member signed the enrollment form after exiting the program.

          Enrollment forms for two PY 2008-2009 members did not have supervisor signatures.

          Three PY 2008-2009 members did not date their signatures on the enrollment forms.

          One PY 2008-2009 member and one PY 2009-2010 member completed their service
           terms, but were not exited from the Portal.

          Files for one member each from PYs 2007-2008, 2008-2009, and 2009-2010 did not
           have exit forms.

          Four PY 2007-2008 members did not sign exit forms.

          One PY 2007-2008 member and five PY 2009-2010 members did not date their
           signatures on exit forms.

          Four PY 2008-2009 members and one PY 2009-2010 member signed exit forms before
           completing service.


                                             27
          The eligibility for education award certifications were incomplete for one sampled PY
           2007-2008 member, two sampled PY 2008-2009 members, and seven sampled PY
           2009-2010 members.

Criteria

2007 AmeriCorps Grant Provisions, Section V, General Provisions, Subsection E, Retention of
Records, requires grantees to retain all program records for 3 years from the date of submission
of the final financial status report (now the Federal financial report). AmeriCorps requirements
do not specifically address procedures for preparing forms. It is, however, good business
practice to maintain original forms and to obtain all necessary signatures and dates.

2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection J,
requires that in order for a member to receive a post-service education award from the National
Service Trust, the grantee must certify to the National Service Trust that the member is eligible
to receive the education benefit.

Without timely completion and submission of enrollment and exit forms, the Corporation cannot
maintain accurate member records. This may also impact the member’s eligibility to receive an
education award.

Recommendations: We recommend that the Corporation:

    7a. Require CNMI to strengthen its procedures to ensure proper completion of member
        enrollment and exit forms; and

    7b. Verify that member forms are properly completed and submitted in accordance with
        grant requirements.

CNMI’s Response: CNMI provided the following responses:

          Its program director has informed site supervisors of the Corporation requirements for
           proper completion of member enrollment and exit forms, and it documented its
           notification in the November 2010 site supervisor meeting minutes;

          Its program director will conduct training on proper completion of member enrollment
           and exit forms prior to start and end of the new program year and it will retain
           documentation of this training;

          The program director will ensure that enrollment and exit forms are completed and
           properly executed in the portal system on time in accordance with procedures;

          It is working on finalizing a comprehensive standard operating procedure that directly
           addresses policies and procedures on member enrollment and exiting. It will provide
           a copy of the finalized procedure before July 1, 2011.




                                               28
Accountants’ Comments: Our responses follow:

          Informing site supervisors of the requirements for proper completion of member
           enrollment and exit forms and conducting site supervisor training on these requirements
           is responsive to our recommendation;

          Creating a standardized operating procedure that addresses policies and procedures on
           member enrollment and exiting is responsive to our recommendation. We recommend
           that the Corporation verify that the new procedure has been provided by July 1, 2011,
           and that it includes procedures for informing site supervisors of the requirements for
           proper completion of member enrollment and exit forms and conducting site supervisor
           trainings on the requirements; and

          We recommend that the Corporation verify that CNMI’s revised procedures have
           been implemented and are working as intended.

Finding 8.      CNMI did not follow AmeriCorps requirements for pre-service orientation
                training, training and fundraising hours, member agreement, record
                retention, annual progress report submittal, and member FICA withholding
                taxes.

CNMI did not follow AmeriCorps requirements for pre-service orientation training, training and
fundraising hours, member agreement, record retention, annual progress report submittal, and
member FICA withholding taxes.

Pre-Service Orientation Training

CNMI did not have documentation to demonstrate that one sampled PY 2007-2008 member,
two sampled PY 2008-2009 members, and two sampled PY 2009-2010 members attended
AmeriCorps pre-service orientation before starting service. CNMI retained the pre-service
orientation agendas and sign-in sheets for these program years, but these members did not
sign them. As a result, we could not determine if the members received an orientation covering
AmeriCorps requirements.

Criteria

2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection D,
Training, Supervision, and Support, Subsection 3, states that grantees must conduct orientation
for members and comply with any pre-service orientation or training required by the
Corporation. In addition, grantees are required to provide members with training, skills,
knowledge, and supervision necessary to perform tasks required in their assigned project
positions, including specific training in a particular field and background information on the
community served. Orientation should cover member rights and responsibilities, prohibited
activities Drug-Free Workplace Act requirements, suspension and termination from service,
grievance procedures, sexual harassment, and other non-discrimination issues.

Training and Fundraising

CNMI could not provide documentation to demonstrate that no more than 20 percent of member
service hours in PY 2007-2008 were spent on training activities, and no more than 10 percent of
member service hours in PY 2007-2008 were spent on fundraising activities. As a result, we

                                              29
could not determine if CNMI complied with Corporation requirements for training and
fundraising.

Criteria

45 CFR § 2520.50, How much time may AmeriCorps members in my program spend in
education and training activities?, states no more than 20 percent of the aggregate of all
AmeriCorps member service hours in a program year, as reflected in the member enrollment in
the National Service Trust, may be spent in education and training activities.

45 CFR § 2520.45, How much time may an AmeriCorps member spend fundraising?, states
that an AmeriCorps member may spend no more than 10 percent of his or her originally agreed-
upon term of service, as reflected in the member enrollment in the National Service Trust,
performing fundraising activities.

Member Agreement

One sampled PY 2007-2008 member started service before signing the member agreement.
The member started service on September 4, 2007, but did not sign the member agreement
until November 6, 2007. Members are not considered enrolled in a program until a contract is
signed. In addition, supervisor signatures were missing on member contracts for two sampled
PY 2008-2009 members.

Criteria

2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection C.1,
Member Enrollment Procedures, Subsection b, stipulates that AmeriCorps programs are
required to sign a member contract with an individual or otherwise enter a legally enforceable
commitment as defined by state law before enrolling a member.

Record Retention

CNMI’s record retention policy did not comply with AmeriCorps regulations. CNMI’s record
retention policy requires that administrative records be kept for 5 years instead of 3 years after
submission of the final expenditure report. As a result, CNMI may not retain financial records
and documents supporting member eligibility and compliance with applicable regulations for the
required period.

Criteria

45 CFR § 2541.420, Retention and access requirements for records, requires supporting
documents and records pertinent to an award to be retained for a period of 3 years from the
date of submission of the final expenditure report.

Annual Progress Report

CNMI submitted its 2009 progress report for Award No. 06TTHMP001 to the Corporation 38
days late. The report was due on December 7, 2009, but was submitted on January 14, 2010.
Timely submission of reports is necessary to ensure that the Corporation is aware of all grant
activities.


                                            30
Criteria

2009 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions Subsection I.1,
Grantee Progress Reports, requires grantees to submit an annual progress report to the
Corporation by the first Monday in December. The report is to be submitted through the
appropriate electronic system.

Member FICA Taxes

Prior to calendar year 2010, CNMI did not withhold FICA taxes (Social Security and Medicare
Taxes) from member stipends and did not provide members with W-2 forms as required by
AmeriCorps regulations. CNMI was unaware of AmeriCorps requirements and believed that the
living allowance was not taxable, because it was called a stipend, and the Internal Revenue
Service (IRS) has ruled that stipends are not taxable. CNMI may be required to pay the unpaid
taxes plus interest.

Criteria

2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
I.3.b, FICA (Social Security and Medicare Taxes), states that unless the grantee obtains a FICA
exemption from IRS, it is required to pay FICA for any member receiving a living allowance.
Additionally, the grantee is required to withhold 7.65 percent from a member’s living allowance.

2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
I.3.c, Income taxes, requires grantees to withhold Federal personal income taxes from member
living allowances, require members to complete a W-4 form at the beginning of each service
term, and provide a W-2 form to the members at the close of the tax year.

Recommendations: We recommend that the Corporation:

    8a. Require CNMI to strengthen its policies and procedures to ensure that it complies with
        AmeriCorps requirements for pre-service orientation training, member training,
        fundraising, member agreements, record retention, and annual progress reports;

    8b. Require CNMI to implement procedures to ensure it withholds and remits employer and
        member shares of FICA to the IRS;

    8c. Require CNMI to implement procedures to ensure it provides W-2 forms to members at
        the close of the tax year; and

    8d. Verify implementation of CNMI’s policies and procedures.

CNMI’s Response: CNMI provided the following responses:

          Pre-Service Orientation Training. It is working on finalizing a comprehensive
           standard operating procedure that directly addresses policies and procedures on
           pre-service orientation training; including acceptable evidence to support member
           participation prior to the start of the program. It will provide a copy of the finalized
           standard operating procedure before July 1, 2011;

                                                 31
      Training and Fundraising. Beginning in PY 2009-2010, a new database system
       was implemented and is now utilized to track training and fundraising activities. The
       system is updated monthly.

      Member Agreement. It is working on finalizing a comprehensive standard operating
       procedure that addresses policies and procedures on member agreements. Prior to
       approving members, the program director will double check to ensure that the
       agreement is signed by both the supervisor and member, and that members start the
       program only after the member agreement is properly executed and approved. In
       addition, member agreements will be filed in member files. It will provide a copy of
       the finalized standard operating procedure before July 1, 2011;

      Record Retention. Beginning on May 1, 2011, all program records will be maintained
       and retained electronically using a newly implemented Public School System policy.
       This system will ensure that program documents are retained for the time limits
       described in CNMI and AmeriCorps regulations;

      Annual Progress Report. Its AmeriCorps program was in a transition period in
       December 2009 with the resignation and replacement of its program director. All
       other annual progress reports were submitted in a timely manner and before the
       deadlines; and

      Member FICA Withholding Taxes Beginning in PY 2009-2010, it began withholding
       member FICA taxes and W-2 (Wage and Tax Statement) forms are now available for
       every member.

Accountants’ Comments: Our comments follow:

      CNMI’s responses for pre-service orientation training, training and fundraising hours,
       member agreement, record retention, annual progress report submission, and member
       FICA withholding taxes are responsive to our recommendation.

      Creating a standardized operating procedure that addresses policies and procedures on
       pre-service orientation training and member agreements is responsive to our
       recommendation. We recommend that the Corporation verify that the new procedure
       has been provided by July 1, 2011, and that it includes procedures for pre-service
       orientation training, documenting member attendance at orientation training, tracking of
       member training and fundraising hours; ensuring member agreements are signed by
       members and supervisors; member agreements are signed before members started
       service; and member agreements are retained in member files. In addition, the standard
       operating procedure should include measures for ensuring records are retained in
       accordance with Corporation requirements; ensuring annual progress reports are filed
       timely; ensuring FICA taxes are withheld from member living allowances; and ensuring
       that W-2 forms are provided to members.

      We recommend that the Corporation verify that CNMI’s revised procedures have
       been implemented and are working as intended.




                                           32
Finding 9.      CNMI could not support all site supervisor labor costs, and site supervisors
                did not sign their timesheets.

As discussed in Schedule A, Note 6, in January 2009, CNMI claimed $8,940 of AmeriCorps site
supervisor salaries for December 2008. It provided site supervisor timesheets and certifications
by the AmeriCorps program director for site supervisors supporting $6,000 of the $8,940
claimed by CNMI. CNMI did not provide documentation to support the remaining $2,940 of
AmeriCorps site supervisor labor costs. In addition, AmeriCorps site supervisors did not sign
their timesheets.

Criteria

OMB Circular A-87 Attachment B, Subsection 8.h., Support of salaries and wages, requires
charges for salaries and wages for individuals working solely on a single Federal award or cost
objective to be supported by periodic certifications that the employee worked solely on the
program for the period covered by the certification. These certifications must be signed by the
employee or supervisory official having firsthand knowledge of the work performed by the
employee. Further, personnel activity reports are required for employees working on multiple
activities. These reports must be signed by each employee and account for all time worked.

45 CFR § 2541.420, Retention and access requirements for records, requires retention of
supporting documents and records pertinent to an award for 3 years from the date of
submission of the final expenditure report.

We questioned $2,940 of unsupported costs in Schedule A, Note 6.

Recommendations: We recommend that the Corporation:

    9a.     Ensure that CNMI develops and implements timekeeping policies and procedures that
            are compliant with applicable cost principles;

    9b.     Ensure that CNMI implements controls to ensure the allowability of reported costs; and

    9c.     Verify implementation of CNMI’s controls to ensure allowability of reported costs.

CNMI’s Response: CNMI provided the following responses:

          It disagrees with the finding because the Federal Financial Report states that this item is
           reported as local share and funded by the Public School System and is not a Federal
           cost incurred by the Corporation. U.S. Territories under P.L. 96-205 amended (48 U.S.C
           1469a [d]), CNCS shall waive any requirement for local matching funds under $200,000
           including in-kind contributions to American Samoa, Guam, the Virgin Islands, and the
           Northern Mariana Islands;

          Its program director will conduct training on timesheets and monthly report requirements
           for site supervisors prior to start of the new program year and it will retain evidence of
           this training. In addition, the program director will check the timesheets for accuracy and
           completeness before approving the timesheets and submitting them to its finance office
           for payment;



                                               33
     Beginning on May 1, 2011, it implemented a policy which requires all financial requests
      including timesheet documents to be submitted and processed electronically. This
      system will ensure that finance documents, including authorizing certifications and
      supporting documents are retained for the time limits described in CNMI and
      AmeriCorps regulations;

     It is working on finalizing a comprehensive standard operating procedure that addresses
      policies and procedures on timesheets and monthly reports for site supervisors. It will
      provide a copy of the finalized standards operating procedure before July 1, 2011 as
      evidence of this commitment.

Accountants’ Comments:

     We do not agree with CNMI’s statement that the $2,940 of questioned Federal costs
      were reported as match on its FFRs and were funded by the Public School System.
      While CNMI did claim $180,546 of site supervisor costs as match on its final FFR for
      Award No. 06TTHMP001, the $2,940 of questioned site supervisor costs were not
      included in this total.

      In CNMI’s original budget for PY 2008-2009, site supervisor costs were budgeted as
      Federal and match costs. On May 22, 2008, the Corporation issued Notice of Grant
      Award Amendment No. 3. This amendment deobligated $307,165 of funds from
      CNMI’s original PY 2008-2009 budget and obligated $160,746 of funds for PY 2008-
      2009. CNMI provided a copy of a budget for this amendment that showed total
      budgeted Federal costs of $160,746. This budget also included $30,705 of
      budgeted Federal costs for site supervisors. This is the same amount of site
      supervisor costs that were included in the original PY 2008-2009 budget. These
      costs were identified on the budget as Account No. 4116 Other Differentials. During
      planning, we reconciled accounting reports provided by CNMI to total Federal costs
      claimed on its November 15, 2009 FFR. We noted that $35,999 of the $1,023,447 of
      Federal costs were from Account No. 4116 Other Differentials. Our sample amount
      of $8,940 was selected from these costs.

      During fieldwork, CNMI provided copies of spreadsheets supporting the $180,546 of
      match claimed on CNMI’s November 15, 2009 FFR. The spreadsheets showed that
      these costs were comprised of $14,855 of site supervisor costs incurred prior to
      January 2007, $108,192 of site supervisor costs incurred from January 2007 through
      February 2008, and $57,499 of site supervisor costs incurred from July 2009 through
      September 2009. However, the $2,940 of unsupported costs appears to be site
      supervisor costs for December 2008. CNMI provided site supervisor timesheets
      from December 2008 to support $6,000 of the $8,940 sample costs.

     Training site supervisor on timesheets and reporting requirements and reviewing
      timesheets for accuracy and completeness is responsive to our recommendation.
      We recommend that the Corporation verify that site supervisor training has been
      conducted and that the program director is reviewing site supervisor timesheets;

     We recommend that the Corporation verify that CNMI’s electronic records system
      complies with the requirements for electronic record keeping that are described in the
      AmeriCorps Grant Provisions;


                                          34
   Creating a standardized operating procedure is responsive to our recommendation. We
    recommend that the Corporation verify that the standard operating procedure has been
    provided by July 1, 2011. We further recommend that the Corporation verify that it
    includes timekeeping policies and procedures that are compliant with OMB Cost Circular
    A-87 and includes controls for ensuring the allowability of reported costs; and

   We recommend that the Corporation verify that CNMI’s revised procedures have
    been implemented and are working as intended.




                                      35
                 APPENDIX A

COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS
          PUBLIC SCHOOL SYSTEM

        RESPONSE TO THE DRAFT REPORT
                                                                   \\ Ot iRE NORTHERN AJ1            ,j


                                                        ~~~\;'\                                    UV1J\>~
                                              ra#
                                                      ()~             STATE BOARD OF EDUCATION            ~.(r/ ~
                                                                        PUBLIC SCHOOL SYSTEM                 '-0/,A>
                                                                             P.O. BOX 5()J37()                   .( 1/)"\
                                              '-'                           SAIPAN, MP 96950                        VJ>
.HmJ:f.rm S Ado
ClltliI'Jlt!,.,\'UII


fJ 7ulI)'aKillJ;
";c(!.Clltlirpcr.wm                                                                                                  Commissioner of Education
                                                                                                                     Rita A. Sabhw, Eel.D.
(j(l/'l'/II   S. f)dt'(J/l (il/t','/"em                                                                              COC.I Wi{u:C:/lml/M.l', (JfM
Secrt!iur.l'ffrerl.fllrer

MClJlhm                                      May 13,2011
Ht'I'lIl(1n    1: r;/lt!I/"C~I'(J
LI/c/(I J. RloJlc".}./m'olila


NOli Pllblic Sdw(}1 Rep•


.I'/"delll Rel" c.'·.I1II1Ii1·e              Mr. Stuart Axenfeld
J"''''''I!''"YA",t;.~.II'''''Hi~h·\''·'Assistant      Inspector General for Audit
Tene/"r           Rep"",,,"'I;,"             Corporation for National Community Service
                                             Washington, D.C. 20525

                                            Dear Mr. Axenfeld:

                                            The CNMI Public School System AmeriCorps program hereby submits its responses to
                                            the audit findings prepared by Cotton & Company LLP and based on the DIG's draft
                                            report on the Agreed-Upon procedures for Corporation and Community Service grants
                                            awarded to the Commonwealth of the Northern Marianas Islands Public School System
                                            (CNMI).

                                            Thank you and we look forward to working with the Corporation in addressing its
                                            recommendations within the next few months.




                                            Program Director
                                            CNMI AmeriCorps
                                            debra.diaz@cnmipss.org
                                            (670) 237-3293




               Slulf! IJrn" diU Etfllt,,:uCifJIr
       Telephone:                   (670) 237-3027                     ((Students First n                             Commisrirmer of Ed,u"ulitm
                                                                                                               Telephone: (670) 237-300//306//3075
       Fax:                         (6711) 664-3711                         www.cnmip.f,\' .OI·g               Fax:       (670) 664-3798
                    COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS
                                PUBLIC SCHOOL SYSTEM
                CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS


                                          RESPONSES



Finding 1. CNMI claimed unallocable and unsupported costs.

CNMI's Response:

Unallocable other costs: $8,242 (06TTHMP001)
Unallocable travel costs: $14,999 (06TTHMP001)

The CNMI transferred the $14,999 to a non-AmeriCorps account, transferred the $8,242 to the
09 AmeriCorps account and adjusted the FFR as requested.

The CNMI is working on finalizing a comprehensive standard operating procedure that
addresses compliance on the Corporations requirements and procedures on financial requests
that are consistent with the program's approved budget for intended program activities. We will
provide a copy of the finalized Standards Operating Procedure before July 1, 2011 as evidence
of this commitment.

Unsupported other costs: $31,436 (06TTHMP001); $1,909 (09TTHMPOO1)
Unsupported labor costs: $2,940 (06TTHMP001)

Documents that support the expenses are no longer available as a result of files transferred to
lower base facility for storage. Subsequently, the building (along with its contents) has been
destroyed and demolished. We ask that these costs be allowed because they are legitimate
program expenses incurred to conduct program activities.

Beginning on May 1, 2011 , all program records will be maintained and retained electronically
per newly implemented Public School System policy. This will ensure that program documents
are available for periods encompassing record retention policy thresholds for both the CNMI and
AmeriCorps regulations.


Finding 2.    CNMI did not comply with AmeriCorps reqUirements for criminal history
              checks and NSOPR searches.

CNMI's Response:

Before any cost can be questioned, an auditor must first ascertain if a cost has been incurred.
Since this is still a potential debt we request that item 2a be dismissed. To prevent any future
misunderstandings on education awards, the CNMI is working on finalizing a comprehensive
standard operating procedure that addresses compliance on the Corporations requirements and
procedures on background checks. We will provide a copy of the finalized Standards Operating
Procedure before July 1, 2011 as evidence of this commitment.


                                                                                                  1
The CNMI AmeriCorps has implemented the Corporations requirements for background checks
by conducting NSOPR searches nationally instead of locally for new members. Moving forward,
all background checks will be conducted in accordance with the Corporations requirements prior
to the start date of each member in the CNMI AmeriCorps program.


Finding 3.    CNMI did not follow AmeriCorps requirements for compelling
              personal circumstances.

The CNMI disagrees with the auditor's recommendation as we have compelling circumstances
for early program exit. The following is a listing of students affected by this finding and the
reasons for exiting the Program early:

PY                               NAME                             REASON FOR EXITING
                                                                  EARLY
09-10                            Member Number 1                  Too many school and
                                                                  extracurricular activities. He
                                                                  felt that he was unableto give
                                                                  the AmeriCorps program the
                                                                  proper time it deserves.
09-10                            Member Number 4                  Take on part-time job to help
                                                                  family.
09-10                            Member Number 5                  To attend college at University
                                                                  of Guam.
09-10                            Member Number 6                  Burnt-out; loss interest.
09-10                            Member Number 7                  To attend college at University
                                                                  of Guam.
09-10                            Member Number 8                  Joined the military.
09-10                            Member Number 9                  Joined the military.
09-10                            Member Number 10                 To attend college at Hawaii
                                                                  Pacific University.


Of the 8 student members, 3 members exited due to personal reasons, 3 members exited due
to attending college outside of the CNMI, and 2 members exited due to joining the military.

We believe that of the 3 members that exited the program for personal reasons, Member
Number 4 has a compelling personal circumstance to exit the program. The CNMI is in a major
economic crisis that forces many families to seek additional employment opportunities including
relying on other family members who are of age to take on part-time jobs to provide
supplemental financial support to sustain younger siblings and to help with household
expenses. Many families. including high school aged students, do not have any other options
but to obtain part-time employment to defray the rising cost of living that puts a huge burden on
already struggling low and middle income families in the CNMI.

While the Corporation does not recognize member 1 and 6 as compelling reasons for exiting,
the CNMI AmeriCorps has tightened its monitoring and tracking systems to identify members
who are not meeting the required hours on a monthly basis; and provide remedial solutions
early on that will prevent members from exiting early and replace members who have not been
performing required hours and fall below the 30% threshold.

                                                                                                  2
 We also believe that the 3 members (5, 7,10) that exited the program to attend college outside
of the CNMI have compelling personal circumstances to exit the program; although the
Corporation does not recognize attending college as compelling personal circumstance for
exiting. Please note that the CNMI is extremely limited in the options that students have after
graduating from high school. To attend college (there is only one College in the CNMI offering
only 1 baccalaureate program), serve in the military, or seek employment opportunities. Of
these (according to PSS survey of exiting students) 55% of students choose to go to College
and 30% of them opt for military; while the remaining 15% of students are undecided and/or
choose to seek employment opportunities.

The CNMI is working on finalizing a comprehensive standard operating procedure that directly
addresses policies and procedures on compelling personal circumstances to comply with
Corporations requirements on such. We will provide a copy of the finalized Standards
Operating Procedure before July 1, 2011 as evidence of this commitment.


Finding 4. CNMI did not accurately record all timesheet hours, did not have
procedures to verify member activities and timesheet accuracy,
and, in some instances, timesheets did not support member
eligibility for education awards.

CNMl's Response:

The Director has informed site supervisors of the Corporations reqUirements for member
timesheets. This is noted in November 2010 site supervisor quarterly meeting minutes and is
readily available for reference if needed. The Director will conduct training on proper
maintenance of member timesheets prior to start of new cycle; and evidence of this will be on
file to support commitment. As a final measure, the Director cross-checks submitted timesheets
for accuracy and completeness in accordance with procedures prior to approving timesheets.

The CNMI is working on finalizing a comprehensive standard operating procedure that directly
addresses policies and procedures on properly maintaining timesheets. We will provide a copy
of the finalized Standards Operating Procedure before July 1, 2011 as evidence of this
commitment.


Finding 5. CNMI did not comply with AmeriCorps citizenship eligibility requirements.

CNMl's Response:

The eligibility documents were miSSing from some student files, however, later it was discovered
that separate files were kept in another filing compartment and the CNMI was able to provide
eligibility documents to auditors accordingly thereafter. All member files have been verified and
do contain elgibility documents of every member enrolled in the CNMI AmeriCorps.

The CNMI is working on finalizing a comprehensive standard operating procedure that directly
addresses policies and procedures on ensuring that members are eligible to join AmeriCorps
based on citizenship verification; and acceptable documents supporting eligibility is filed in



                                                                                                  3
member's files. We will provide a copy of the finalized Standards Operating Procedure before
July 1, 2011 as evidence of this commitment.


Finding 6. CNMI could not demonstrate that some members received performance
evaluations, and all end-of-term evaluations did not meet AmeriCorps
requirements.

CNMI's Response:

The newly-hired Director will take up training opportunity for new Directors when available and
in accordance with the budget. The Director continues to utilize the training resources in the
portal to strengthen the Program and comply with requirements. In addition, the Director has
informed site supervisors of the Corporations requirements for member evaluations. This is
noted in November 2010 site supervisor quarterly meeting minutes and is readily available for
reference if needed. The Director will conduct training on member evaluations prior to start of
new cycle; and evidence of this will be on file to support commitment. The Director will ensure
that member evaluations are submitted on time and properly conducted as required in the
guidelines.

The CNMI is working on finalizing a comprehensive standard operating procedure that directly
addresses policies and procedures on conducting and documenting member evaluations. We
will provide a copy of the finalized Standards Operating Procedure before July 1, 2011 as
evidence of this commitment.


Finding 7. CNMI did not complete all member enrollment and exit forms and enter
them into the Corporation's reporting systems in accordance with
AmeriCorps requirements.

CNMI's Response:

The Director has informed site supervisors of the Corporations requirements for proper
completion of member enrollment and exit forms. This is noted in November 2010 site
supervisor quarterly meeting minutes and is readily available for reference if needed . The
Director will conduct training on proper completion of member enrollment and exit forms prior to
start and end of new cycle; and evidence of this will be on file to support commitment. The
Director will ensure that enrollment and extt forms are completed and properly executed in the
portal system on time in accordance with procedures.

The CNMI is working on finalizing a comprehensive standard operating procedure that directly
addresses policies and procedures on member enrollment and extting. We will provide a copy
of the finalized Standards Operating Procedure before July 1, 2011 as evidence of this
commitment.




                                                                                                  4
Finding 8. CNMI did not follow AmeriCorps requirements for pre-service orientation
training, training and fundraising hours, member agreement, record
retention, annual progress report submittal, and member FICA withholding
taxes.

CNMI's Response:

Pre-Service Orientation Training

The CNMI is working on finalizing a comprehensive standard operating procedure that directly
addresses policies and procedures on pre-service orientation training; including acceptable
evidence that support participation of members prior to start of program. We will provide a copy
of the finalized Standards Operating Procedure before July 1, 2011 as evidence of this
commitment.

Training and Fundraising

Beginning in PY 200&.201 0, a new database system has been implemented and now is utilized
to track training and fundraising activities in the CNMI AmeriCorps program. Training and
fundraising hours report is updated monthly and readily accessible and available for immediate
reference.

Member Agreement

The CNMI is working on finalizing a comprehensive standard operating procedure that directly
addresses policies and procedures on member agreement. Prior to approving members,
Director will double check to ensure that agreement is signed by both supervisor and member;
and that members start the program only after member agreement is properly executed and
approved. Member agreement document will be filed in member files accordingly. We will
provide a copy of the finalized Standards Operating Procedure before July 1, 2011 as evidence
of this commitment.

Record Retention

Beginning in May 1, 2011, all program records will be maintained and retained electronically per
newly implemented Public School System policy. This will ensure that program documents are
available for periods encompassing record retention policy thresholds for both the CNMI and
AmeriCorps regulations.

Annual Progress Report

The CNMI AmeriCorps program was in a transition period in December 2009 with the
resignation and replacement of the Program Director. To our knowledge, all other annual
progress reports were submitted in a timely manner and before the deadlines.

Member FICA Withholding Taxes

Beginning in PY 2009-201 0, the CNMI has begun withholding member FICA taxes; and W-2's
are now readily available for every member.



                                                                                                 5
Finding 9. CNMI could not support all site supervisor labor costs, and site supervisors
did not sign their timesheets.

CNMI's Response:

The CNMI disagrees with the finding because the Federal Finandal Report states that this item
is reported as local share and funded by the Public School System and is not a federal cost
incurred by the Corporation. U.S. Territories under P.L. 96-205 amended (48 U.S.C 1469a [dJ)
CNCS shall waive any requirement for local matching funds under $200,000 including in-kind
contributions to American Samoa, Guam, the Virgin Islands, and the Northern Marianas Islands.

However, moving forward and in compliance to the Corporation's timesheet requirements for
staff serving the Program, the Director will oonduct trainirg on timesheet and monthly report
requirements for Site Supervisors prior to start of new cycle; and evidence of this will be on file
to support commitment. As a final measure, the Director cross-checks submitted timesheets for
accuracy and completeness in accordance with procedures prior to approving timesheets and
submitting to Finance for payment.

Please note that beginning in May01, 2011, the Public School System implemented a policy
requiring all financial requests including timesheet documents to be submitted and processed
electronically. This will ensure compliance in financial activities including authorizing
certifications and record retention of supporting documents of all accounting transactions.

The CNMI is working on finalizing a comprehensive standard operating procedure that directly
addresses policies and procedures on timesheets and monthly reports for site supervisors. We
will provide a copy of the finalized Standards Operating Procedure before July 1, 2011 as
evidence of this commitment.




                                                                                                  6
                   APPENDIX B

CORPORATION FOR NATIONAL AND COMMUNITY SERVICE'S
          RESPONSE TO THE DRAFT REPORT
                               NATIONAL&:
                               COMMUNITY
                               SERVICE ........



To:

From:

Date:

Subject:       Response to OIG Draft of Agreed-Upon Procedures of Corporation Grants
               Awarded to the Commonwealth of Northern Marianna Islands Public School
               System

Thank you for the opportunity to review the draft Agreed-Upon Procedures report ofthe
Corporation's grants awarded to the Northern Marianna Islands Public School System
(CNMI). We will work with CNMI to ensure its corrective action plan adequately addresses the
findings. We will respond with our management decision after we receive the fmal report and
the auditor's working papers and review CNMI's corrective action plan.

Cc:     William Anderson, Chief Financial Officer
        John Gomperts, Director of,AmeriCorps
        Valerie E. Green, General Counsel
